BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-299
MONTGOMERY COUNTY, MARYLAND,

Petitioner,
V.

YASMIN REYAZUDDIN,

Respondent.
As required by Supreme Court Rule 33. l(h), I certify
that the Motion for Leave to File and Brief of Amicus
Curiae International Municipal Lawyers Association in
Support of Petition for Writ of Certiorari contains 228
words and 3,246 words respectively, excluding the
parts of the Brief that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 27, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Slate ol Ohio
My Commission Expires
·e~ruary 14, 2023

